<html>
<title> - EPA OVERSIGHT: UNIMPLEMENTED INSPECTOR GENERAL AND GAO RECOMMENDATIONS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


 EPA OVERSIGHT: UNIMPLEMENTED INSPECTOR GENERAL AND GAO RECOMMENDATIONS

=======================================================================

                                 HEARING

                               BEFORE THE

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 6, 2017

                               __________

                           Serial No. 115-52
                           
                           
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                           



      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
                        
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
27-122 PDF                  WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5631263916352325223e333a267835393b78">[email&#160;protected]</a> 
                        
                        


                    COMMITTEE ON ENERGY AND COMMERCE

                          GREG WALDEN, Oregon
                                 Chairman

JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Vice Chairman                        Ranking Member
FRED UPTON, Michigan                 BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
TIM MURPHY, Pennsylvania             ELIOT L. ENGEL, New York
MICHAEL C. BURGESS, Texas            GENE GREEN, Texas
MARSHA BLACKBURN, Tennessee          DIANA DeGETTE, Colorado
STEVE SCALISE, Louisiana             MICHAEL F. DOYLE, Pennsylvania
ROBERT E. LATTA, Ohio                JANICE D. SCHAKOWSKY, Illinois
CATHY McMORRIS RODGERS, Washington   G.K. BUTTERFIELD, North Carolina
GREGG HARPER, Mississippi            DORIS O. MATSUI, California
LEONARD LANCE, New Jersey            KATHY CASTOR, Florida
BRETT GUTHRIE, Kentucky              JOHN P. SARBANES, Maryland
PETE OLSON, Texas                    JERRY McNERNEY, California
DAVID B. McKINLEY, West Virginia     PETER WELCH, Vermont
ADAM KINZINGER, Illinois             BEN RAY LUJAN, New Mexico
H. MORGAN GRIFFITH, Virginia         PAUL TONKO, New York
GUS M. BILIRAKIS, Florida            YVETTE D. CLARKE, New York
BILL JOHNSON, Ohio                   DAVID LOEBSACK, Iowa
BILLY LONG, Missouri                 KURT SCHRADER, Oregon
LARRY BUCSHON, Indiana               JOSEPH P. KENNEDY, III, 
BILL FLORES, Texas                   Massachusetts
SUSAN W. BROOKS, Indiana             TONY CARDENAS, California
MARKWAYNE MULLIN, Oklahoma           RAUL RUIZ, California
RICHARD HUDSON, North Carolina       SCOTT H. PETERS, California
CHRIS COLLINS, New York              DEBBIE DINGELL, Michigan
KEVIN CRAMER, North Dakota
TIM WALBERG, Michigan
MIMI WALTERS, California
RYAN A. COSTELLO, Pennsylvania
EARL L. ``BUDDY'' CARTER, Georgia

                                 7_____

              Subcommittee on Oversight and Investigations

                        TIM MURPHY, Pennsylvania
                                 Chairman
H. MORGAN GRIFFITH, Virginia         DIANA DeGETTE, Colorado
  Vice Chairman                        Ranking Member
JOE BARTON, Texas                    JANICE D. SCHAKOWSKY, Illinois
MICHAEL C. BURGESS, Texas            KATHY CASTOR, Florida
SUSAN W. BROOKS, Indiana             PAUL TONKO, New York
CHRIS COLLINS, New York              YVETTE D. CLARKE, New York
TIM WALBERG, Michigan                RAUL RUIZ, California
MIMI WALTERS, California             SCOTT H. PETERS, California
RYAN A. COSTELLO, Pennsylvania       FRANK PALLONE, Jr., New Jersey (ex 
EARL L. ``BUDDY'' CARTER, Georgia        officio)
GREG WALDEN, Oregon (ex officio)

                                  (ii)
                             
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Tim Murphy, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................     1
    Prepared statement...........................................     3
Hon. Kathy Castor, a Representative in Congress from the State of 
  Florida, opening statement.....................................     5
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................     7
    Prepared statement...........................................     8
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     9
    Prepared statement...........................................    10

                               Witnesses

Alan S. Larsen, Counsel to the Inspector General, Environmental 
  Protection Agency..............................................    12
    Prepared statement...........................................    14
    Answers to submitted questions...............................    90
J. Alfredo Gomez, Director of Natural Resources and Environment, 
  Government Accountability Office...............................    33
    Prepared statement...........................................    35
    Answers to submitted questions...............................    97

                           Submitted Material

Subcommittee memorandum..........................................    84

 
 EPA OVERSIGHT: UNIMPLEMENTED INSPECTOR GENERAL AND GAO RECOMMENDATIONS

                              ----------                              


                      WEDNESDAY, SEPTEMBER 6, 2017

                  House of Representatives,
      Subcommittee on Oversight and Investigations,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:18 a.m., in 
room 2322, Rayburn House Office Building, Hon. Tim Murphy 
(chairman of the subcommittee) presiding.
    Members present: Representatives Murphy, Griffith, Burgess, 
Brooks, Collins, Barton, Walters, Costello, Carter, Walden (ex 
officio), Castor, Tonko, Clarke, Ruiz, and Pallone (ex 
officio).
    Staff present: Ray Baum, Staff Director; Mike Bloomquist, 
Deputy Staff Director; Jerry Couri, Deputy Chief Counsel, 
Environment; Lamar Echols, Counsel, Oversight and 
Investigations; Paul Edattel, Chief Counsel, Health; Ali 
Fulling, Legislative Clerk, Oversight and Investigations, 
Digital Commerce and Consumer Protection; Alex Miller, Video 
Production Aide and Press Assistant; John Ohly, Professional 
Staff Member, Oversight and Investigations; Christopher 
Santini, Counsel, Oversight and Investigations; Sam Spector, 
Policy Coordinator, Oversight and Investigations; Peter 
Spencer, Senior Professional Staff Member, Energy; Jeff 
Carroll, Minority Staff Director; Jacqueline Cohen, Minority 
Chief Environment Counsel; Chris Knauer, Minority Oversight 
Staff Director; Miles Lichtman, Minority Policy Analyst; Jon 
Monger, Minority Counsel; Dino Papanastasiou, Minority GAO 
Detailee; and C.J. Young, Minority Press Secretary.

   OPENING STATEMENT OF HON. TIM MURPHY, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Mr. Murphy. Good morning, everyone, and welcome to our 
hearing of the Oversight and Investigations Subcommittee on 
Energy and Commerce.
    The subcommittee convenes this hearing today to examine 
unimplemented recommendations by the Environmental Protection 
Agency's Office of Inspector General and Government 
Accountability Office. Acting on these recommendations would 
improve EPA's ability to carry out its core mission, protecting 
human health and the environment. This mission is never more 
important than during times of natural disaster like the one 
the Gulf Coast is experiencing right now in Hurricane Harvey, 
and we are about to be hit with another hurricane on the 
Florida coast.
    First of all, on behalf of the committee, I want to express 
my sincere sorrow to everyone impacted by the storm. Hurricane 
Harvey is one of the worst natural disasters the United States 
has ever faced, and it is still too early to tell the full 
extent of the devastation that has displaced thousands of 
people. Members of this committee on both sides of the aisle 
represent constituents experiencing loss and destruction from 
the storm, and our thoughts and prayers are with these families 
as they begin to rebuild their lives from this national 
tragedy.
    During the storm and in the aftermath, EPA continues to 
play a critical role in the Federal response to Hurricane 
Harvey. While EPA is still in the midst of initial response 
efforts, its work has only just begun. We look forward to 
monitoring the Agency's response to the disaster and learn the 
full extent of the environmental impact and the challenges that 
lie ahead.
    The loss and destruction of Hurricane Harvey make today's 
hearing even more important. The committee has the opportunity 
to learn about ways to strengthen the EPA, including 
highlighting unimplemented recommendations that may improve the 
EPA's ability to protect the environment and human health 
during recovery efforts or future natural disasters. And I go 
back and reflect on what we are about to face in Florida and 
Puerto Rico and the disasters that are looming there.
    Now the Constitution provides Congress with the authority 
to conduct oversight of the Executive Branch, and in 
partnership with the Government Accountability Office and 
Office of Inspector General, we work together to root out 
waste, fraud, and abuse at Federal agencies such as the EPA. 
Through investigations and audits, both GAO and OIG often make 
recommendations on ways to improve the efficiency and 
effectiveness of EPA. And after these recommendations are 
issued, GAO and OIG work with the Agency to ensure that EPA 
acts on their findings.
    Today the committee will learn that, even when EPA agrees 
with the recommendations, it may take years to implement them, 
and some are never fully adopted by the Agency. As a result, 
many of the open recommendations span multiple administrations, 
some dating as far back as the Bush administration. While EPA 
adopts recommendations at a rate around the Federal Government 
average, there are still unimplemented recommendations in many 
critical areas of the Agency.
    According to the OIG's most recent semiannual report to 
Congress, released in May 2017, the EPA has the potential to 
save $103.3 million by implementing OIG's open recommendations. 
The semiannual report showed 43 open recommendations with past 
due completion dates and 56 with due dates set in the future.
    The GAO will testify that EPA has implemented 191 of the 
318 recommendations made since 2007, with 127 recommendations 
still unimplemented. OIG and GAO have both highlighted 
deficiencies in EPA's management and operations, including 
concerns about EPA's information security posture, workforce 
management, and grant administration.
    For example, EPA OIG recently conducted an audit focusing 
on flaws relating to EPA's information security posture during 
fiscal years 2015 and 2016. The OIG reported that the Agency 
lacks an understanding of which contractors of the EPA have 
significant information security responsibilities, raising 
questions about the Agency's network integrity. The OIG 
recommended that EPA develop a process for identifying these 
contractors. The EPA is not expected to implement this 
recommendation until December 31st of 2018.
    GAO and OIG have also uncovered waste and mismanagement in 
EPA's grant programs. This is particularly troubling because 
grants comprise almost half of the EPA's budget, about $4 
billion annually. In 2016, GAO found that EPA's grant-
monitoring practice may impact the Agency's ability to 
efficiently monitor results and increase administrative costs.
    Additionally, in 2017, GAO reported that the EPA did not 
have the information it needed to allocate grant management 
resources effectively. GAO recommendations range from 
standardizing the format of grant recipient progress reports to 
developing a process to analyze workloads. All 12 
recommendations in these two reports remain unimplemented.
    These are just some of the many reports and audits 
conducted by the OIG and GAO. We will discuss more of them 
today. Both the EPA OIG and GAO have done excellent work to 
highlight the problems within EPA and find solutions to solve 
these issues. So, I am grateful for your work and look forward 
to hearing more about your findings.
    I want to add here, with things looming in Florida and with 
the tragedies in Texas, I can probably speak for the committee 
that we better not find out that EPA has dawdled on anything 
that is causing harm. We know there is a great deal of water 
pollution that is out there because of overwhelming of sewer 
systems. We are concerned about the increase in Zika mosquitoes 
in Texas. We don't know if some of that has to do with some 
issues with water management and other things within the 
jurisdiction of EPA. We will keep a close watch on all of those 
and see if there are any errors that have occurred related to 
weaknesses in the Agency's implementing things that are causing 
these problems.
    So, I thank our witnesses today for your dedication and 
work to ensure that EPA is carrying out its mission. I want to 
especially recognize Alfredo Gomez, our witness from GAO. He is 
a Houston native who has two nephews serving in the fire 
department there. Are they doing OK? They are doing OK. Mr. 
Gomez says they are. We appreciate their service and sacrifice 
during Hurricane Harvey and its aftermath.
    [The prepared statement of Mr. Murphy follows:]

                 Prepared statement of Hon. Tim Murphy

    The subcommittee convenes this hearing today to examine 
unimplemented recommendations by the Environmental Protection 
Agency's Office of Inspector General and the Government 
Accountability Office.
    Acting on these recommendations would improve EPA's ability 
to carry out its core mission-protecting human health and the 
environment. This mission is never more important than during 
times of natural disaster like the people of the Gulf Coast are 
now experiencing in the wake of Hurricane Harvey.
    On behalf of the committee, I want to express my sincere 
sorrow to everyone impacted by this storm. Hurricane Harvey is 
one of the worst natural disasters the United States has ever 
faced and it's still too early to tell the full extent of the 
devastation that has displaced thousands of people.
    Members of this committee on both sides of the aisle 
represent constituents experiencing loss and destruction from 
the storm. Our thoughts and prayers are with these families as 
they begin to rebuild their lives from this national tragedy.
    During the storm and in the aftermath, EPA continues to 
play a critical role in the Federal response to Hurricane 
Harvey. While EPA is still in the midst of initial response 
efforts, its work has only just begun. We look forward to 
monitoring the Agency's response to the disaster and learning 
the full extent of the environmental impact and challenges that 
lie ahead.
    The loss and destruction of Hurricane Harvey makes today's 
hearing even more important. The committee has the opportunity 
to learn about ways to strengthen the EPA, including 
highlighting unimplemented recommendations that may improve 
EPA's ability to protect the environment and human health 
during recovery efforts or future natural disasters.
    The Constitution provides Congress with the authority to 
conduct oversight of the Executive Branch. In partnership with 
the Government Accountability Office and Office of Inspector 
General, we work together to root out waste, fraud, and abuse 
at Federal agencies such as the EPA.
    Through investigations and audits, both GAO and OIG often 
make recommendations on ways to improve the efficiency and 
effectiveness of EPA. After these recommendations are issued, 
GAO and OIG work with the Agency to ensure that the EPA acts on 
their findings.
    Today, the committee will learn that even when EPA agrees 
with recommendations, it may take years to implement them and 
some are never fully adopted by the Agency. As a result, many 
of the open recommendations span multiple administrations, some 
dating as far back as the Bush administration.
    While EPA adopts recommendations at a rate around the 
Federal Government average, there are still unimplemented 
recommendations in many critical areas of the Agency.
    According to the OIG's most recent semiannual report to 
Congress, released in May 2017, EPA has the potential to save 
$103.3 million by implementing OIG's open recommendations. The 
semiannual report showed 43 open recommendations with past due 
completion dates and 56 with due dates set in the future. The 
GAO will testify that EPA has implemented 191 of the 318 
recommendations made since 2007, with 127 recommendations still 
unimplemented.
    OIG and GAO have both highlighted deficiencies in EPA's 
management and operations, including concerns about EPA's 
information security posture, workforce management, and grant 
administration.
    For example, EPA OIG recently conducted an audit focusing 
on flaws relating to EPA's information security posture during 
fiscal years 2015 and 2016. The OIG reported that the Agency 
lacks an understanding of which contractors at the EPA have 
significant information security responsibilities, raising 
questions about the Agency's network integrity. The OIG 
recommended that EPA develop a process for identifying these 
contractors. The EPA is not expected to implement this 
recommendation until December 31, 2018.
    GAO and OIG have also uncovered waste and mismanagement in 
EPA's grant programs. This is particularly troubling because 
grants comprise almost half of EPA's budget, about $4 billion 
annually. In 2016, GAO found that EPA's grant monitoring 
practices may impact the Agency's ability to efficiently 
monitor results and increase administrative costs.
    Additionally, in 2017, GAO reported that the EPA did not 
have the information it needed to allocate grant management 
resources effectively. GAO recommendations range from 
standardizing the format of grant recipient progress reports to 
developing a process to analyze workloads. All 12 
recommendations in these two reports remain unimplemented.
    These are just some of the many reports and audits 
conducted by the OIG and GAO -We will discuss more of them here 
today.
    Both the EPA OIG and GAO have done excellent work to 
highlight the problems within EPA and find solutions to solve 
these issues.
    I am grateful for your work and look forward to hearing 
more about your findings.
    Thank you to our witnesses today for your dedication and 
great work to ensure that EPA is effectively carrying out its 
mission.
    I especially want to recognize Alfredo Gomez, our witness 
from GAO. He is a Houston native who has two nephews serving on 
the fire department there. We appreciate their service and 
sacrifice during Hurricane Harvey and its aftermath.

    Mr. Murphy. Now I turn to my colleague from Florida and 
recognize her for an opening statement.

  OPENING STATEMENT OF HON. KATHY CASTOR, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF FLORIDA

    Ms. Castor. Mr. Chairman, thank you for convening this 
hearing today, and thank you to our witnesses for their work.
    The hearing subject, while important, pales in comparison 
of the true oversight needed of the Trump Environmental 
Protection Agency. EPA is, and always has been, a critical 
partner to our States and communities back home. Most of what 
EPA does is to support our communities back in cleaning up 
polluted sites, helping protect the air we breathe and the 
water we drink. And I thank the professionals and scientists at 
the Environmental Protection Agency for their work.
    But President Trump and Administrator Scott Pruitt have a 
very different vision, unfortunately, and they have been acting 
to weaken support for our communities back home that comes 
through the EPA. And it is particularly troubling that EPA 
Administrator Pruitt has not appeared before the Energy and 
Commerce Committee to date. This committee has direct oversight 
of the EPA, and it is simply unprecedented and unacceptable 
that the Administrator has not appeared before the committee.
    Now the importance of the EPA is particularly clear as 
Texas learns more about the scope and extent of the destruction 
caused by Hurricane Harvey. There is nothing like a disaster 
response that demonstrates how critical toxic chemical, 
Superfund, and other EPA local initiatives are to the health 
and safety of our neighbors.
    As a Floridian, I know all to well the devastation that 
massive hurricanes can bring to homes, businesses, and 
communities, and the recovery from such a storm is long, 
expensive, and challenging. And our thoughts are with the 
residents of Puerto Rico, the Virgin Islands, and Floridians as 
they are in the path of another extremely dangerous storm in 
Hurricane Irma.
    Hurricane Harvey slammed into the Gulf Coast as a Category 
4. So far, it has left at least 60 people dead and billions of 
dollars in damage, and a death total and estimated cost of 
recovery is likely to continue to rise in the coming weeks.
    Ranking member of the Subcommittee on Health, 
Representative Gene Green--I just saw him at the other 
subcommittee meeting--represents the city of Houston and has 
seen much of his district flooded. And our thoughts are with 
him and his constituents at this time.
    And, Mr. Gomez, I want to thank, recognize you for being 
here today in what is surely a difficult time for you and your 
family.
    The EPA has been a key Agency responding to Harvey. And for 
this reason, this hearing should be a timely and important step 
in exploring how to strengthen the Agency as it supports local 
responders and begins to assess the possible environmental 
impact of the flooding, toxic releases.
    But this hearing, unfortunately, is devoted to a much less 
significant topic. The scope of potential environmental risk 
caused by this ongoing crisis, while still coming into focus, 
is considerable. People are evacuating through dirty and 
contaminated floodwaters that may contain bacteria and toxic 
substances. There have also been reports of fires at chemical 
facilities which may involve the release of toxic pollutants. 
Additional reports have also suggested possible damage to 
leaking gas tanks at fuel facilities which, if true, may pose 
environmental concerns that the EPA will need to address.
    And I am particularly concerned about reports of flooding 
Superfund sites and what damage they may have caused. For 
example, according to EPA, 13 of the 41 former and current 
toxic waste sites in Harvey-impacted areas have flooded and may 
have experienced some damage.
    Additionally, the city of Houston contains approximately 
450 petrochemical plants. News reports indicate these plants 
have contributed to 74 instances of excess air pollution since 
Harvey hit, emitting more than 1 million pounds of hazardous 
substances into the air.
    See, our local communities need the expertise of the EPA to 
prevent and mitigate such releases, but the Trump 
administration has been working overtime to weaken EPA's 
ability to help back home. And now, it is really showing at a 
time of disaster.
    The storm also raises ongoing concerns of drinking water 
safety. According to EPA, 4,500 drinking water systems are 
potentially threatened by floodwaters, disrupted sewage 
systems.
    Now, after Hurricane Katrina, Energy and Commerce 
professional staff were on the ground to help, and this 
committee should consider oversight hearings in Texas in the 
near term. But today's hearing, rather than focusing on the big 
picture, examines unimplemented recommendations for EPA, at a 
time when the real issue is the decimation of the EPA 
professional workforce proposed by President Trump and 
Administrator Pruitt. And yet, we respond to the grave 
environmental and human health risk of Hurricane Harvey and 
other catastrophes at this time, but the overall EPA has never 
been more important.
    Mr. Chairman, I am deeply troubled by the direction of the 
Agency under the Trump administration, and I implore you and my 
Republican colleagues to conduct true oversight of the damage 
being done to our bedrock environmental protections built 
through decades of bipartisan work. And we need to do it before 
deep and lasting damage is inflicted across America.
    The Trump EPA is waging an aggressive rollback of 
environmental and human health protections through 
politicization of the Agency, extreme proposed budget and 
staffing cuts, repealing or delaying rulemaking, and attacking 
fundamental science. The Trump administration proposed extreme 
budget cuts that cut to the heart of our local communities and 
threaten the health and environment of Americans in every 
State.
    The Trump budget would slash EPA's budget by nearly $2.6 
billion, reduce the professional workforce there by over 3,000 
employees, and the damage will be done to our air quality, 
diesel emission reductions, lead safety, and it goes on and on. 
Already there is evidence of conflicts of interest, favoritism 
towards certain businesses, and grants changed to exact 
political revenge. This is not acceptable and this is what 
needs oversight. The ongoing crisis unfolding on the Gulf Coast 
demonstrates the dangers of the Trump administration's extreme 
assault on environmental protection.
    Mr. Chairman, we want to work with you to make sure the EPA 
implements the workforce and contractor recommendations. But, 
if we are serious about ensuring that the Agency is able to 
protect human health and the environment, then we must work 
together to conduct true oversight of the fundamental damage 
being done to this Agency and our neighbors back home.
    Thank you, and I yield back.
    Mr. Murphy. Thank you.
    The Chair now recognizes the chairman of the full 
committee, Mr. Walden, for 5 minutes.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. I thank the gentleman.
    Just in response to my friend from Florida, our committee 
staff, the Oversight Committee has worked diligently throughout 
the last several weeks in clear communication with the various 
agencies involved in the hurricane. This hearing was put 
together before Harvey had a name. So, we will do our oversight 
and continue to. At the appropriate time, I anticipate there 
will be a delegation that will go and hold hearings or do 
appropriate review.
    I am one, when there is an emergency going on, who tries to 
stay out of the way of the first responders and let them do 
their job. And so, at the right time we will do that, and we 
will have Administrator Pruitt before our committee sooner 
rather than later. I share frustration that there has been a 
long delay in getting some of these positions filled, partly by 
our friends in the Senate, but the time has come for these 
Agency heads to come before our committee, and they will.
    Now, as to this hearing, I appreciate Subcommittee Chairman 
Murphy having this and his opening comments. We care deeply 
about what has happened in Texas. We care deeply about what is 
about to happen in Florida. My own district is on fire, and 
much destruction is going on there. All these things matter.
    You want to talk about air quality. We could use your 
support on some of our forestry legislation to reduce the fuel 
loads, so we don't poison people with fires and destroy 
watersheds.
    Now we know that these recovery efforts will continue for 
years. Recovering from any disaster, whether it is Hurricane 
Harvey or Irma or the destructive wildfires burning out of 
control throughout the West, requires coordination at every 
level of the Government, and the EPA is a critical part of 
that. The challenges facing the EPA that pertain to Harvey are 
significant, but I hope the Agency seizes upon the lessons 
learned in responses to previous natural disasters such as 
Hurricanes Katrina and Sandy.
    Today's hearing represents the first opportunity to hear 
from the EPA Office of Inspector General and the Government 
Accountability Office regarding any outstanding recommendations 
that, if implemented, could enable the Agency to better achieve 
or do its job better.
    We will also examine some of the areas of concern that have 
been identified and commented upon by the OIG and the GAO, but 
whose recommendations remain unimplemented by the EPA. We 
should be mindful, however, that many of the OIG and GAO's 
unimplemented recommendations span multiple administrations 
and, therefore, represent longstanding challenges for the 
Agency. For example, we have learned the EPA has failed to 
complete an Agency-wide workload analysis in more than 20 
years.
    Similarly, both OIG and GAO have consistently identified 
issues that generate serious concerns as to whether EPA has 
knowledge of, or adequately monitors, the activities of its 
contractors and grant recipients, despite the significant 
portion of the Agency's annual budget that is awarded to third 
parties. Addressing these issues will increase transparency and 
accountability to EPA in addition to enabling the Agency to 
make better-informed budgetary decisions. I believe that all 
Americans want a healthy environment for themselves, their 
families, and their communities.
    And I would like to thank Alan Larsen from the EPA OIG and 
Alfredo Gomez from the GAO for joining us today to provide 
testimony and to expand upon their organizations' findings and 
recommendations.
    I would also like to recognize and thank Mr. Gomez's 
nephews, who I understand are serving the Houston Fire 
Department. Thank you for their work as first responders who 
bravely have assisted so many of their fellow citizens during 
Hurricane Harvey.
    I am looking forward to productive discussion this morning 
regarding actions EPA can take which will enable the Agency to 
better accomplish its core mission of protecting human health 
and the environment.
    [The prepared statement of Mr. Walden follows:]

                 Prepared statement of Hon. Greg Walden

    As Chairman Murphy referenced in his opening remarks, 
today's hearing comes at a particularly important time as we 
have all witnessed the devastation wrought by Hurricane Harvey. 
Indeed, members of this committee, on both sides of the aisle, 
represent districts that were directly impacted by the 
hurricane and our hearts go out to all those who were affected 
by this disaster.
    We know that the recovery efforts are just beginning and 
will continue for years to come. Recovering from any disaster, 
whether its Hurricanes Harvey or Irma or the destructive 
wildfires burning out of control all across the West, requires 
coordination at every level of Government, and one of the 
Federal agencies that will play a key role in the overall 
recovery effort is the Environmental Protection Agency.
    The challenges facing the EPA that pertain to Harvey are 
significant, but I hope that the Agency seizes upon the lessons 
it learned in its responses to previous natural disasters, such 
as Hurricanes Katrina and Sandy. Today's hearing represents the 
first opportunity to hear from EPA's Office of Inspector 
General and the Government Accountability Office regarding any 
outstanding recommendations that, if implemented, could enable 
the Agency to better achieve do its job better.
    We will also examine some of the areas of concern that have 
been identified and commented upon by the OIG and GAO, but 
whose recommendations remain unimplemented by EPA. We should be 
mindful, however, that many of OIG's and GAO's unimplemented 
recommendations span multiple administrations and therefore 
represent longstanding challenges for the Agency. For example, 
we have learned that EPA has failed to complete an Agency-wide 
workload analysis in more than 20 years.
    Similarly, both OIG and GAO have consistently identified 
issues that generate serious concerns as to whether EPA has 
knowledge of, or adequately monitors, the activities of its 
contractors and grant recipients despite the significant 
portion of the Agency's annual budget that is awarded to third 
parties. Addressing these issues will increase transparency and 
accountability at EPA in addition to enabling the Agency to 
make better informed budgetary decisions.
    I believe that all Americans want a healthy environment for 
themselves, their families, and their communities. I would like 
to thank Alan Larsen from the EPA OIG and Alfredo Gomez from 
the GAO for joining us today to provide testimony and expand 
upon their organizations' findings and recommendations. I would 
also like to recognize and thank Mr. Gomez's nephews who are 
serving in the Houston Fire Department, as well as all first 
responders who bravely assisted so many of their fellow 
citizens during Hurricane Harvey.
    I am looking forward to a productive discussion this 
morning regarding actions EPA can take which will enable the 
Agency to better accomplish its core mission of protecting 
human health and the environment.

    Mr. Walden. With that, Mr. Chairman, I yield back the 
balance of my time.
    Mr. Murphy. I appreciate the gentleman's yielding back, and 
I recognize the ranking member, Mr. Pallone, for 5 minutes.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman.
    It has been a week and a half since Hurricane Harvey hit 
Texas, and as the scope of the environmental disaster only 
begins to become known, thousands remain displaced, their homes 
and businesses flooded. And I know firsthand the immense 
devastation caused by such natural disasters. In 2012, my 
district was hit hard by Hurricane Sandy, and I had never seen 
worse storm damage in our area in my lifetime. For many, this 
storm was the worst-case scenario, lives lots, homes flooded, 
businesses lost. Our Nation is now experiencing historic levels 
of destruction and loss on the Gulf Coast in the wake of 
Hurricane Harvey.
    Our fellow Members of Congress, including five members of 
the Texas delegation on this committee, are working hard with 
Federal, State, and local officials, and first responders to 
help those affected by the storm. And as the cleanup continues, 
many grave environmental and human health risks exist. In the 
days since Hurricane Harvey came to shore we have seen chemical 
plants on fire, fuel tanks leaking, mass releases of toxic 
pollutants into the air, and flooded Federal Superfund sites. I 
am deeply concerned of the potential risk to human health and 
the environment caused by exposure to the hazardous materials 
kept at these sites, and this committee must work to understand 
the impact some of these facilities may have on public health.
    The Trump administration recently delayed amendments to the 
Risk Management Program which included safety requirements for 
companies that store large quantities of dangerous chemicals. 
Moreover, the environmental issues resulting from the hurricane 
also underscore the need for robust implementation of the 
Emergency Planning and Community Right-to-Know Act, or EPCRA. 
Communities have the right to know important details about the 
type and amount of harmful chemicals released in their 
neighborhoods. All of these risks underscore the need for a 
strong and capable EPA.
    Today we are discussing recommendations by the EPA 
Inspector General and the Government Accountability Office 
regarding the EPA, and I want to thank our witnesses for their 
testimony and work on these recommendations. However, I would 
argue that recommendations for improving EPA's performance are 
part of a much wider need to ensure that the Agency is high-
performing, efficient, and effective in accomplishing the 
Agency's mission of protecting human health and the 
environment. Over the last six months EPA has been doing 
everything possible to operate in secrecy. Administrator Pruitt 
has no interest in transparency, and that should be 
unacceptable to every member of this committee. Administrator 
Pruitt repeatedly disregards oversight inquiries from the 
Democrats on this committee, and that should be unacceptable to 
anyone who believes we have an oversight responsibility.
    And the Trump EPA has proposed aggressive cuts to 
environment and human health protections, dismissed scientists 
from important advisory boards, and proposed severe budget and 
staffing reductions at EPA. These actions taken in totality 
serve to directly undermine the Agency's ability to effectively 
protect human health and the environment.
    A robust and effective EPA is key in responding to natural 
disasters like Hurricane Harvey, and EPA currently has 143 
personnel supporting the response efforts for Hurricane Harvey 
and has established a unified command with State and local 
partners, but that number is going to increase dramatically in 
the coming weeks. At its peak after Hurricane Katrina, about 
1600 EPA staff and contractors worked in the Gulf Coast region 
assisting with response and cleanup activities, in addition to 
thousands of additional EPA employees supporting response 
efforts from EPA headquarters and regional offices around the 
country. With the employee cuts and buyouts that the 
administration has proposed, we need to ensure that EPA will 
actually have the employees in place to conduct this critical 
work.
    So, Mr. Chairman, I want to work with you to make sure we 
have a robust and effective EPA. The committee must conduct 
active oversight of the Agency, particularly drinking water, 
infrastructure, and regulation, clean air protections, and the 
impacts of climate change. We must also conduct ongoing 
oversight over EPA and other agencies' efforts to assist the 
Gulf Coast rebuild.
    And the Trump administration's ongoing efforts to weaken 
environmental health protections, attack fundamental science, 
and also to propose extreme budget and staff reductions will do 
nothing, in my opinion, but undermine EPA's efforts to protect 
human health and the environment not only with regard to 
Hurricane Harvey, but in so many other areas. So, I am 
concerned and I hope that we can work together.
    And again, thanks to everyone.
    I yield back.
    Looking forward to your comments to the panel.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Pallone follows:]

             Prepared statement of Hon. Frank Pallone, Jr.

    Mr. Chairman, it's been a week and a half since Hurricane 
Harvey hit Texas. As the scope of the environmental disaster 
only begins to become known, thousands remain displaced, their 
homes and businesses flooded.
    I know firsthand of the immense devastation caused by such 
natural disasters. In 2012, my district was hit hard by 
Hurricane Sandy. I had never seen worse storm damage in our 
area in my lifetime. For many, the storm was a worst case 
scenario: lives lost, homes flooded, and businesses lost. Our 
Nation is now experiencing historic levels of destruction and 
loss on the Gulf Coast in the wake of Hurricane Harvey.
    Our fellow members of Congress, including five members of 
the Texas delegation on this committee, are working hard with 
Federal, State, and local officials and first responders to 
help those affected by the storm. As the cleanup continues, 
many grave environmental and human health risks exist.
    In the days since Hurricane Harvey came ashore, we have 
seen chemical plants on fire, fuel tanks leaking, mass releases 
of toxic pollutants into the air, and flooded Federal Superfund 
sites.
    I am deeply concerned of the potential risks to human 
health and the environment caused by exposure to the hazardous 
materials kept at these sites. This committee must work to 
understand the impacts some of these facilities may have on 
public health. The Trump administration recently delayed 
amendments to the Risk Management Program, which included 
safety requirements for companies to store large quantities of 
dangerous chemicals. Moreover, the environmental issues 
resulting from the hurricane also underscore the need for 
robust implementation of the Emergency Planning and Community 
Right to Know Act (EPCRA). Communities have a right to know 
important details about the type and amount of harmful 
chemicals released in their neighborhoods.
    All of these risks underscore the need for a strong and 
capable Environmental Protection Agency.
    Today we are discussing recommendations by the EPA 
Inspector General and the Government Accountability Office 
(GAO) regarding the EPA. I want to thank our witnesses for 
their testimony and work on these recommendations.
    However, I would argue that recommendations for improving 
EPA's performance are part of a much wider need to ensure that 
the Agency is high-performing, efficient, and effective in 
accomplishing the Agency's mission of protecting human health 
and the environment.
    Over the last six months, EPA has been doing everything 
possible to operate in secrecy. Administrator Pruitt has no 
interest in transparency--and that should be unacceptable to 
every member of this committee. Administrator Pruitt repeatedly 
disregards oversight inquiries from the Democrats on this 
committee--and that should be unacceptable to anyone who 
believes we have an oversight responsibility.
    The Trump EPA has proposed aggressive cuts to environment 
and human health protections, dismissed scientists from 
important advisory boards, and proposed severe budget and 
staffing reductions at EPA.
    These actions, taken in totality, serve to directly 
undermine the Agency's ability to effectively protect human 
health and the environment. A robust and effective EPA is key 
in responding to natural disasters like Hurricane Harvey. EPA 
currently has 143 personnel supporting the response efforts for 
Hurricane Harvey and has established a Unified Command with 
State and local partners. That number is going to increase 
dramatically in the coming weeks. At its peak, after Hurricane 
Katrina, about 1,600 EPA staff and contractors worked in the 
Gulf Coast region assisting with response and cleanup 
activities, in addition to thousands of additional EPA 
employees supporting response efforts from EPA headquarters and 
regional offices around the country. With the employee cuts and 
buyouts that the Administrator has proposed, we need to ensure 
that EPA will actually have the employees in place to conduct 
this critical work.
    Mr. Chairman, I want to work with you to make sure we have 
a robust and effective EPA. The committee must conduct active 
oversight of the Agency, particularly drinking water 
infrastructure and regulation, clean air protections, and the 
impacts of climate change. We must also conduct ongoing 
oversight over EPA and other Agencies' efforts to assist the 
Gulf coast rebuild.
    The Trump administration's ongoing efforts to weaken 
environmental health protections, attack fundamental science, 
and propose extreme budget and staff reductions will do nothing 
but undermine EPA's efforts to protect human health and the 
environment.
    Thank you, and I yield back.

    Mr. Murphy. I thank the gentleman for his comments.
    I ask unanimous consent that the Members' written opening 
statements be introduced into the record and, without 
objection, the documents will be entered into the record.
    I would now like to introduce our panel of Federal 
witnesses for today's hearing. First, we have Mr. Alan Larsen. 
He is the Counsel to the Inspector General for the 
Environmental Protection Agency. We also have Mr. Alfredo 
Gomez, who serves as the Director of Natural Resources and 
Environment for the Government Accountability Office.
    And we thank you for being here today and providing 
testimony. We look forward to the opportunity to discuss open 
and unimplemented recommendations made to the EPA.
    You are aware the committee is holding an investigative 
hearing and, when doing so, has the practice of taking 
testimony under oath. Do you have any objections to taking 
testimony under oath?
    Seeing none, then, the Chair advises you under the rules of 
the House and rules of the committee, you are entitled to be 
advised by counsel. Do either of you desire to be advised by 
counsel during the testimony today?
    Neither one has asked for that. So, in that case, will you 
please rise and raise your right hand, and I will swear you in.
    [Witnesses sworn.]
    Well, you have answered in the affirmative, and you are now 
under oath and subject to the penalties set forth in Title 18, 
Section 1001, of the United States Code.
    I will ask that each of you give a 5-minute summary of your 
written statement. We will being with you, Mr. Larsen.

STATEMENT OF ALAN S. LARSEN, COUNSEL TO THE INSPECTOR GENERAL, 
ENVIRONMENTAL PROTECTION AGENCY, AND J. ALFREDO GOMEZ, DIRECTOR 
OF NATURAL RESOURCES AND ENVIRONMENT, GOVERNMENT ACCOUNTABILITY 
                             OFFICE

                  STATEMENT OF ALAN S. LARSEN

    Mr. Larsen. Good morning, Chairman Murphy, Representative 
Castor, and members of the subcommittee. I am Alan Larsen, 
counsel to the Inspector General for both the Environmental 
Protection Agency and the Chemical Safety and Hazard 
Investigation Board.
    I thank this committee for highlighting the importance of 
acting on unimplemented OIG recommendations. As you know, an 
Office of Inspector General cannot direct an Agency's actions. 
Our influence is through our recommendations, which can result 
in substantial cost savings and major improvements in Agency 
programs, but only if an Agency chooses to implement them.
    Our OIG undertakes a risk-based work planning process to 
determine which issues we will review during the coming year. 
Our plan, however, is always subject to change, as we 
inevitably receive hotline requests and congressional requests. 
We conduct those reviews and issue final reports, which 
generally will include one or more recommendations to address 
our findings.
    As required by the Inspector General Act, the EPA OIG 
publishes a cumulative list of unimplemented recommendations in 
our semiannual reports to Congress. Our most recent report 
cited 43 open recommendations with past due completion dates 
and 56 with future dates. Notably, potential cost savings for 
the unimplemented recommendations listed amount to over $100 
million.
    Now I will briefly discuss some of the OIG's 
recommendations to the EPA that remain unimplemented. You will 
see that some are quite recent. I highlight them because of 
their potential impact.
    In July 2017, we completed a review of the processes the 
EPA uses to verify that Agency contractors have the training 
needed to protect the Agency from cyberattacks. We found that 
the EPA is unaware of the number of contractors who require 
specialized training. The OIG recommended that the EPA 
implement a process to maintain a listing of contractors who 
require the specialized training and that the Agency report 
this information to its Chief Information Security Officer. 
While the Agency has committed to implement a process for 
verifying that Agency contractors are appropriately trained, 
our recommendation remains unimplemented, posing a continuing 
risk to the Agency's information, data, and network.
    Through another audit completed in August of 2014, we 
looked at the Agency's oversight of cloud computing 
initiatives. We found that the EPA's lack of oversight over 
vendors resulted in missed opportunities for significant 
savings. The EPA paid over $2 million for services that were 
not fully rendered or did not comply with Federal requirements. 
We recommended several corrective actions to the Agency, such 
as improving its policies and performing documented cost-
benefit analyses. To date, the Agency has not fully implemented 
all of our recommendations.
    In April of 2017, we completed a review of Puerto Rico's 
State revolving funds based on a hotline complaint from the 
EPA. The EPA reported that the Puerto Rico Government 
Development Bank did not have funds to honor a combined balance 
of approximately $188 million. The OIG determined that over 
$774 million is at risk due to Puerto Rico's financial crisis 
and that the restoration of funds in the near future is highly 
unlikely. The OIG recommended that the EPA evaluate options to 
restore the viability of the revolving funds or implement new 
strategies better suited to the needs of Puerto Rico. While the 
Agency has committed to considering future approaches to grant 
funding, the OIG's recommendation is as yet unimplemented.
    These are just a few of the examples of OIG's 
recommendations to the Agency. We will continue to work 
actively with the EPA and keep Congress fully advised regarding 
actions to address our recommendations.
    Accomplishing our work requires sufficient appropriated 
funds from Congress. Our funding clearly represents a fruitful 
investment for the American taxpayer, as the OIG returned $22 
for every $1 given to us in fiscal year 2016. While I'm aware 
that this is not an appropriations committee, I respectfully 
ask for any help you can provide us in this regard.
    Mr. Chairman, this concludes my prepared statement. I'm 
happy to answer any questions. Thank you.
    [The prepared statement of Mr. Larsen follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Murphy. Thank you, Mr. Larsen.
    Mr. Gomez, you are recognized for 5 minutes, please.

                 STATEMENT OF J. ALFREDO GOMEZ

    Mr. Gomez. Thank you.
    Chairman Murphy, Congresswoman Castor, and members of the 
subcommittee, good morning, and I'm pleased to be here today to 
talk to you about the status of recommendations GAO has made to 
the Environmental Protection Agency.
    As you know, the mission of the EPA is to protect human 
health and the environment. We have conducted reviews focused 
on various aspects of EPA's operations, such as managing grants 
and workforce planning, and its programs. And through these 
reviews, we have made numerous recommendations to improve EPA's 
performance and the efficiency and effectiveness of its 
operations and programs.
    My statement today will focus on two main areas. First, the 
status of EPA's implementation of GAO's recommendations since 
fiscal year 2007 and how these recommendations relate to EPA's 
operations and programs. And, two, examples of benefits 
realized by EPA and others based on our work.
    As part of our process, we follow up on recommendations we 
have made and report on their status to Congress. Agencies also 
have a responsibility to monitor and maintain accurate records 
on the status of our recommendations. We now follow up with EPA 
twice a year to determine the extent to which our 
recommendations have been implemented and the benefits that 
have been realized. We consider a recommendation implemented 
when the Agency has taken actions to address the issue or 
deficiency that we have identified.
    With regard to the first area on the status of GAO's 
recommendations, we have found that, of the 318 recommendations 
we made to EPA, they had implemented 191. The remaining 127 
recommendations remain open or not implemented.
    And just to give you some more information, for 
recommendations that we made over 4 years ago, that is, 
recommendations from fiscal year 2007 to 2012, EPA has 
implemented 77 percent. For recommendations we made within the 
last 4 years, that is, since fiscal year 2013, the EPA has 
implemented 34 percent.
    Experience has shown that it takes time for some 
recommendations to be implemented. For this reason, we actively 
track each unaddressed or open recommendation for 4 years. The 
318 recommendations we have made fall into six broad 
categories, such as management and operations, water-related 
issues, and environmental contamination and cleanup.
    For example, in January 2017, we reported on EPA's 
management of grants to States, local governments, and others 
which make up almost 50 percent of the Agency's budget. We 
found that EPA does not have sufficient information about the 
workload associated with these grants. Consequently, the Agency 
is not able to effectively and efficiently allocate staff 
across its offices and regions to manage these grants.
    Because the Agency did not know its grants workload, it 
sometimes had to shift staff from other mission areas to 
address the work. We recommended that EPA collect and analyze 
data about grants management workloads and use these data to 
inform staff allocations. EPA agreed with this recommendation 
and has initiated steps to address it, and we will continue to 
monitor EPA's actions to figure out what the status of the recs 
are.
    We have also identified many benefits such as programmatic 
and process improvements based on EPA taking actions on our 
recommendations. For example, we issued several reports on 
drinking water and wastewater infrastructure issues. In 
particular, we reported on drinking water and wastewater 
infrastructure needs of rural and small communities. We found 
that some communities faced potentially duplicative application 
requirements such as separate environmental analyses for each 
program that they applied for, resulting in delays and 
increased cost to communities. We recommended that EPA and the 
Department of Agriculture work together with State and other 
officials to develop guidelines to assist States in developing 
uniform environmental analyses, and they have done so.
    In summary, our recommendations provide a good opportunity 
to improve the Government's fiscal position, better serve the 
public, and make Government programs more effective and 
efficient. The EPA's implementation of our recommendations will 
help the Agency continue to improve its performance and the 
efficiency and effectiveness of its operations, and we will 
continue to work with Congress to monitor and draw attention to 
these important issues.
    Chairman Murphy, Congresswoman Castor, members of the 
subcommittee, this concludes my statement. I'd be happy to 
answer any questions.
    And I also just wanted to add a thank you for your words of 
support to my family in Texas and my nephews, but also all the 
other families in Texas. Thank you.
    [The prepared statement of Mr. Gomez follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Murphy. Thank you, Mr. Larsen and Mr. Gomez.
    I will recognize myself for 5 minutes here for questions.
    First of all, your organizations have consistently 
highlighted EPA's failures to perform adequate workforce and 
workload analysis as being an area of concern warranting some 
corrective action by the Agency, which has not occurred. So, 
Mr. Gomez, I will start with you. Could you explain how EPA's 
failure to assess its workforce and workload, grants, whatever, 
hinders its ability to respond in natural disasters like 
Hurricane Harvey and Irma?
    Mr. Gomez. So, what we've talked about in our work looking 
at workforce planning and grants management is that it's really 
important for the Agency, as you said, to have good information 
on workload. So, data on workload is important because the 
Agency doesn't really ensure that it has the right people in 
the right places with the right skills and competencies to 
accomplish the mission of the Agency, whether that is to focus 
on areas that are short term or long term. We want to make sure 
that the Agency has that information. It is something that the 
Agency has struggled with for decades. So, we continue to make 
those recommendations. I know the IG has made recommendations 
in the past. So, we think that's really important, again, to 
ensure that it has the right people in the right places with 
the right skill sets in the right locations.
    Mr. Murphy. Mr. Larsen, could you comment on that, how it 
affects our ability to respond to these hurricanes?
    Mr. Larsen. The IG's work I think is directly aligned with 
the GAO's work in this area. We've issued reports with 
recommendations. As of July of this year, the Agency has 
responded to and acted on the last of the open recommendations. 
However, for the last several years, including the current 
management challenges report that we gave to the Agency, we 
continue to highlight workforce planning as a challenge that 
the Agency needs to address.
    I guess the simple answer to your question, Mr. Chairman, 
is that if the Agency doesn't know what its work requirements 
are, it cannot assign and align people to those requirements. 
And we are urging them to, as Mr. Gomez says, identify the data 
that allows them to make those comparisons and align their work 
with their workforce.
    Mr. Murphy. And will you oftentimes find weaknesses when it 
is a time of challenge, which we are facing now? Now every year 
since 2015 the GAO has sent a letter to the EPA highlighting 
high-priority recommendations, and GAO considers these 
recommendations to be critical to EPA's mission of protecting 
human health and the environment.
    So, Mr. Gomez, as EPA responds to Hurricane Harvey, as it 
prepares to respond to Hurricane Irma, are there any high-
priority recommendations that, if implemented, could have 
impacted EPA's response to the hurricane? I mean, what are 
their high priorities right now that need to be done?
    Mr. Gomez. So, this high-priority letter that we've sent to 
EPA, we've done that since 2015. And what we've done is really 
look at the recommendations that GAO has made and identify 
those areas that we saw as high priority, either areas that GAO 
has identified as high risk--we have a number of 
recommendations that are focusing on water infrastructure.
    So, I think one of the priority recommendations that we 
think does have relevance to Harvey and other future disasters 
is the area of water infrastructure. So, for example, we've 
done work looking at how small and rural utilities use asset 
management, which is a really important tool to understand what 
infrastructure these utilities have, perhaps where the areas 
are in that infrastructure that are vulnerable or at high risk. 
So that, when a disaster does take place, they're better 
prepared, both to respond to it, but also, if they have to 
rebuild, they can rebuild with resilience in mind.
    So, we've made a number of recommendations to EPA, getting 
EPA to work with the Department of Agriculture to come up with 
better guidelines and information and to encourage the States 
and the utilities to use asset management. Small utilities are 
challenged because they don't have the technical expertise 
necessarily. But we should do whatever we can in the Federal 
family and others to help these communities better prepare for 
these disasters.
    Mr. Murphy. Finally, in June of 2007, GAO released a report 
on Hurricane Katrina that made several recommendations related 
to enhancing disaster response. One of these recommendations is 
still open after 10 years. Mr. Gomez, why is that 
recommendation still open? What was it, and is going to affect 
how things are in Texas, Louisiana, Florida, and Puerto Rico?
    Mr. Gomez. Sure. So, what we did in that report from 2007 
is we were looking at EPA's response to Katrina and, also, to 
the subsequent cleanup. One of the recommendations that we kept 
open over the years was we had recommended that EPA work with 
other Federal land management agencies, DHS, and FEMA to better 
coordinate responses to cleanup. And the reason we did that is 
because we found in the work that National Wildlife Refuges, 
which there are several in Louisiana, had been contaminated and 
the contamination lasted over a year. And so, there was not 
really good planning to come together and clean up that 
contamination. Some of the refuges were closed for over a year.
    So now, what's happened since then is Congress passed the 
Post-Katrina Act which put in place better national 
preparedness and, also, put in place the National Response 
Framework, of which EPA has a key role now in responding to 
hazardous waste and oil spills. So, in theory, we expect that 
EPA is putting in place, for example, in Florida any response 
that's needed as the hurricane may come to that region. So, 
we're going to look at that recommendation based on what's 
happened now and potentially close it because we think it might 
address what we had been talking about.
    Mr. Murphy. Thank you.
    And I see my time has expired. Ms. Castor, you are 
recognized for 5 minutes.
    Ms. Castor. Thank you, Mr. Chairman.
    Thanks again, gentlemen.
    As the Agency goes forward to implement what has not been 
implemented to date, it would seem that the Trump 
administration's kind of assault on the professional staff 
there and personnel would have a real impact on the ability to 
follow through with your recommendations. The Trump 
administration has still failed to provide nominees for almost 
all Senate-confirmed leadership positions at EPA. Most Regional 
Administrator positions are also without political leadership, 
including EPA Region 6 in Dallas responding to Hurricane 
Harvey.
    The Trump administration, a lot of this, we blame a lot on 
the Senate, but you can't put too much blame on the Senate here 
because the Trump administration has not nominated people for 
Deputy Administrator, Assistant Administrator for the Office of 
Air and Radiation, Assistant Administrator for the Office of 
Chemical Safety and Pollution Prevention, the Chief Financial 
Officer, the Assistant Administrator for Environmental 
Information, International and Tribal Affairs, Land and 
Emergency Management, Research and Development, and Water.
    Do you all agree that when you don't have folks in charge 
that it complicates the ability of the Agency to follow through 
with your recommendations?
    Mr. Larsen. Well, the short answer is yes. The longer 
answer is we have career people who remain in place who do 
carry out the work of the Agency. But, as you indicate, the 
statutory mandates remain in place, and it's up to the Agency 
to figure out a way to carry out those mandates. And it is more 
difficult if you don't have the leadership.
    Ms. Castor. Yes?
    Mr. Gomez. Yes, I would agree that it's important to have 
all the staff that you need at all levels of the Agency to 
carry out its mission.
    Ms. Castor. And, Mr. Gomez, you said that GAO meets with 
folks at EPA every six months. Have you met with Administrator 
Pruitt? Is it typical that you would meet with the 
Administrator or leadership to go over recommendations from 
GAO?
    Mr. Gomez. So, what our Comptroller General likes to do is 
he likes to meet with all of the new Cabinet Secretaries and 
leaders of other offices. So, GAO is in the process of 
scheduling a meeting with Administrator Pruitt, and I would go 
to that meeting as well with----
    Ms. Castor. But that has not been done here in the first 
nine-month----
    Mr. Gomez. We have not scheduled it, yes.
    Ms. Castor. You are just like the Energy and Commerce 
Committee that has yet to see the EPA Administrator.
    Gentlemen, there is a very disturbing press report that 
came out just a few days ago that the EPA has taken the unusual 
step of putting a political operative in charge of vetting 
hundreds of millions of dollars in grants that the EPA 
distributes annually, assigning the funding decisions to a 
former Trump campaign aide with little environmental policy 
experience, who has already canceled close to $2 million in 
competitively awarded grants to university and nonprofit 
organizations. It really does appear like this is being 
politicized.
    It says--this is from The Washington Post on September 
4th--``Earlier this summer, on the same day that Senator Lisa 
Murkowski of Alaska joined with two other Republicans in voting 
down a GOP healthcare bill, EPA staffers were instructed, 
without any explanation, to halt all grants to the regional 
office that covers Alaska, Washington, Oregon, and Ohio. That 
hole was quickly narrowed to just Alaska and remained in place 
for nearly two weeks.''
    The former Bush EPA Administrator, Christine Todd Whitman, 
said, ``This is out of the ordinary. We didn't do a political 
screening on every grant because many of them were based on 
science, and political appointees don't have that kind of 
background.''
    Have you all opened any kind of investigation into what is 
happening here yet?
    Mr. Larsen. We've read those reports. We've not received 
complaints from Congress so far or from members of the public 
or from organizations about this.
    Ms. Castor. OK.
    Mr. Larsen. If you could or if you would, I'd offer a 
general and a specific answer to your question.
    Ms. Castor. Quickly, because I have one more question.
    Mr. Larsen. OK. The general answer is EPA has always been a 
lightning rod. We get complaints, on the one hand, that EPA is 
ignoring its statutory obligations and allowing----
    Ms. Castor. Let me ask--I thank you for that. You have, I 
believe, opened an investigation last week into Administrator 
Pruitt's travel because it is so out of the ordinary. It says, 
``Officials in the EPA's Office of Inspector General notified 
Agency leadership last week that Pruitt was in Oklahoma, or en 
route there, for nearly half of his first three months in 
office.'' Maybe that is why GAO can't get a meeting and he 
can't appear before the Energy and Commerce Committee. But the 
problem is that it looks like he has been using taxpayer funds 
for this excessive travel.
    How long will it take for the OIG to get to the bottom of 
this investigation?
    Mr. Larsen. Ma'am, in our world we distinguish between 
investigations and audits, and it's probably a distinction most 
people don't care about. But we are doing an audit. They tend 
to take longer. We're going to look not only at the specifics 
of Mr. Pruitt's travel, but the robustness of the controls that 
govern travel generally and whether they're sufficient.
    Ms. Castor. Thank you very much.
    I yield back.
    Mr. Murphy. Thank you.
    The Chair recognizes Mr. Griffith for 5 minutes.
    Mr. Griffith. Let me follow up on that real quick. And 
correct me if I am wrong, but an investigation means you are 
looking into something that might have wrongdoing, and an audit 
means you are checking into the money to see whether or not we 
need to put different parameters around it? Would that be a 
fair assessment or something along those lines?
    Mr. Larsen. That, generally, yes. Investigations tend to 
look at criminality. They can look at administrative 
violations. This is not either of those.
    Mr. Griffith. This is just an audit to see what we can do 
better?
    Mr. Larsen. Well, it's also going to look at whether there 
were violations of Agency requirements.
    Mr. Griffith. OK. All right. I appreciate that. Thank you.
    Let me get down to where I was going to go initially, and 
that would be that I am concerned about the workforce and the 
workload questions. EPA's Office of Inspector General--that 
would be you all--reported, ``EPA has not conducted workload 
analysis in over 20 years, making it difficult for EPA to 
implement corrective actions and allocate its budget 
effectively.''
    And I guess what I am looking at there is that we have 
heard talk today about a few months where certain positions 
aren't filled, but here we are looking at 20 years, both 
Republican and Democrat administrations that have not at the 
EPA gone in and looked at their workload analysis. And then, we 
see with Hurricane Harvey that we had 13 Superfund sites that 
were affected. Am I not correct that, if we had performed a 
workload analysis over time, I am not saying all 13 of them 
would have been cleaned up, but that we might have more of 
these Superfunds being cleaned up?
    And I also referenced, because we are talking about Harvey 
so much now, but I remember testimony in a previous hearing in 
a different subcommittee where they were talking about a site 
in St. Louis that hadn't been acted on--or in the St. Louis 
vicinity that had not been acted on--in decades as well that 
was a Superfund site.
    So, can you help me out? Of those things that would have 
helped both before a disaster and just in general, if we had a 
workload analysis, so we could say these were the worst ones, 
let's put most of our people there? And I am happy to take 
answers from either of you.
    Mr. Larsen. Sure. I'll give my short answer, and, then, Mr. 
Gomez can respond. My short answer is it's difficult to draw a 
direct line between the lack of a workforce plan and a specific 
failure to be able to cover something. I think we can all say, 
if you knew more precisely where your requirements are and how 
many people, and what kinds of people you need to address 
those, you would probably have a better result. But I can't 
draw a direct one-to-one correlation.
    Mr. Griffith. Mr. Gomez?
    Mr. Gomez. And I'll just pivot from that last comment. And 
I think that our point on our work on workforce planning has 
been exactly that point, is to understand, again, from data 
where your people are, what skill sets you need, the locations 
you need them in. So that you have a better sense of how to 
meet that mission. And that mission could be that you focus on 
cleaning up hazardous waste sites. But doing a workforce 
analysis I think would help you, hopefully, do that better.
    Mr. Griffith. Well, and a workforce analysis would help us, 
as legislators, as well. Although this is not an appropriating 
committee, we hear all the time that folks need more money. 
Well, if I know that you need more money because you are going 
to help rural communities--and I appreciated, as you mentioned, 
rural communities with water and wastewater--help those 
communities instead of just send edicts down from the alabaster 
towers in Washington, ``Here's what you've got to do,'' without 
helping those folks figure out how they are going to do with 
the money that they have. That creates big problems.
    If you had a workload analysis, we might be able to figure 
out where we could appropriate the money more advantageously to 
prevent problems before they happen, whether it be after a 
hurricane or when you have got a serious problem like we had in 
Flint, Michigan, or issues in my very rural, mountainous 
district where there are problems we don't know how to solve 
and we are afraid to ask, for fear that, instead of coming in 
to help us, they will just come in and try to punish folks who 
are trying to do the best they can under limited circumstances 
in a rural areas. So, I do appreciate that as well.
    So, thank you, and thank you for putting that in both your 
oral and your written testimony.
    Mr. Larsen. Sir, I have one more comment----
    Mr. Griffith. Yes, sir?
    Mr. Larsen [continuing]. That's responsive to your 
question. That is, our OIG Office of Program Evaluations, 
similar to audits, has a current project underway looking at 
Superfund workforce planning. And we'll keep you and your staff 
informed on the progress of that effort.
    Mr. Griffith. Well, I greatly appreciate that very much.
    You know, we are just beginning the Hurricane Harvey 
efforts, and that will continue for years, and the 
environmental impacts that are already occurring and yet to be 
seen. And we talked about the Superfund sites there. Is there 
anything that you see that is not being done by the EPA 
currently--and I know it is really early--in the Hurricane 
Harvey area that we ought to be concerned about?
    Mr. Larsen. Again, I'll give my answer. It's always a 
dilemma for us. As Chairman Walden said, you don't want to wade 
into the middle of the cleanup effort. On the other hand, you 
don't want to wait so long that your efforts are valueless. So, 
we're always trying to figure out when it is that we get into 
it.
    I guess what I fall back on is the National Response 
Framework that Mr. Gomez alluded to, and it does give certain 
responsibilities to the EPA. We cannot mandate that EPA take 
any specific steps. After the fact, I think we would evaluate 
whether they took the appropriate steps under the Framework. 
But I don't see a role for the OIG jumping in right now in the 
middle of a cleanup effort.
    Mr. Griffith. Thank you. And unfortunately, my time is up, 
and I yield back.
    Mr. Murphy. Thank you.
    Mr. Pallone, you are recognized for 5 minutes.
    Mr. Pallone. Thank you, Mr. Chairman.
    I just want to remind my colleagues, I heard my colleague 
from Virginia talk about Superfund or Superfund cleanup in 
action. I mean, in reality, there is no Superfund. I have had a 
bill for years to try to get the Superfund, the trust fund, if 
you will. There is a Superfund Program, but there is, 
essentially, no Superfund trust fund anymore to pay for 
anything.
    And that, you know, back when the Republicans first took 
the Congress--I know it is ancient history now--with Newt 
Gingrich as the Speaker, it expired. And I begged him and 
Democrats begged him at the time to renew, and he refused.
    I still have the bill out there, and I would ask at anytime 
if our chairman or the Speaker would allow us to reauthorize 
the Superfund trust fund, because, then, we would have the 
money to do these cleanups. On an annual basis, I go before the 
appropriators, because that is the only way to get the money 
now, through general revenue, unfortunately, and ask for more 
funding. And we always get less, significantly less, than what 
we ask for.
    So, it is nice to talk about Superfund cleanup, but the 
reality is it was essentially stopped by the Republican 
Congress, but not to say that they are totally to blame, but 
they certainly were the ones. And you could bring it up anytime 
and I will support you, passing it in committee or on the 
floor.
    I just wanted to say, I wanted to thank the EPA OIG for 
recently accepting the committee's request to review the 
propriety of Administrator Pruitt's use of taxpayer funds for 
travel to and from his home State of Oklahoma. I know that we 
have already mentioned that.
    But, unfortunately, the Trump administration has launched a 
continuous assault against fundamental science and proposed 
significant cuts to EPA's budget and staff that threaten to 
undermine the Agency's ongoing efforts to protect human health 
and the environment.
    Mr. Gomez, in your testimony you state that GAO has made 
318 recommendations to EPA since fiscal year 2007, including 49 
recommendations focused on environmental contamination and 
cleanup. And these include taking actions for improving cleanup 
management of hazardous waste sites, enhancing responses to 
disasters such as Hurricane Katrina. My question is, is that 
correct, and how might GAO's recommendations regarding 
enhancing EPA's response to disasters inform the Agency's 
ongoing response to Hurricane Harvey?
    Mr. Gomez. Yes, that is correct. And again, I think, as I 
mentioned earlier, one of the areas where we see EPA's 
recommendations contributing to the response to Harvey and 
other future disasters is in the area of water infrastructure, 
where we have recommended that EPA work with States and others 
to really assist the small communities.
    We have all heard that in Texas there were many water 
systems that were under boiled water notices and, then, over 50 
systems, I believe, were actually shut down. So, we think that 
it's really important in the area of asset management, which is 
a really important tool for these utilities to use, to 
understand, again, what they have, what are the areas that are 
vulnerable, so they can address them and they can use funds to, 
then, build them or restore them, and, again, building in 
resilience, so that they're better prepared. So, I think that's 
the one area where I would sort of call attention, based on our 
recommendations, where there's some immediate benefit.
    Mr. Pallone. All right. Thank you.
    I don't want to keep repeating all the budget cuts that the 
Trump administration has proposed to the EPA, buyouts, all 
kinds of things that would result in fewer employees. And that 
could include hundreds of positions in EPA's Region 6 
headquarters in Dallas, where employees are currently 
responding to Hurricane Harvey.
    So, let me ask you about these proposed cuts to your 
office, to Mr. Larsen. How are current and expected budget 
limitations impacting staffing levels and the ability of EPA's 
Office of Inspector General? Specifically, how are they 
impacting your ability to conduct audits, evaluations, and 
investigations, if you will.
    Mr. Larsen. Thank you for that question. It's a serious 
challenge to us. We have had to cut our workforce year by year 
by year, and we are down from 360 or so, down to 270, and we 
anticipate having to go fewer than that, based on the most 
likely budget scenarios.
    If the original President's budget proposal were to be 
adopted by Congress, we'd have to cut very substantially the 
amount of work we did. As you know, we gave you a fairly 
detailed explanation of where those cuts would occur, which 
offices, which kinds of projects.
    What we do is, on an annual basis, plan for the work that 
we would hope to do based on how much value the project would 
bring in terms of cost savings or changes in how EPA does 
business. We will have to do many fewer such projects in any 
given year, based on the likely budget outcomes.
    Mr. Pallone. Thank you. Thank you, Mr. Chairman.
    Mr. Murphy. Mr. Collins, you are recognized for 5 minutes.
    Mr. Collins. Thank you, Mr. Chairman.
    Maybe I am going to go down a little bit different road, 
but really talking about, Mr. Gomez, if I look back over 10 
years, and I am looking right now just in the environmental 
area. I am looking at the suggestions you made for spill 
prevention, none of which have been implemented.
    So, I guess the question is this: you are doing these 
audits, making these recommendations. Do you prioritize them in 
some way with any kind of ranking system, like one star to five 
stars? And when you see something like this, and now 10 years 
have gone by, could I assume these would have been considered 
perhaps lower priority? And then, at some point do you go 
revisit that with someone, and who is that someone, to say, 
``Hey, it's been 10 years. You haven't done any of these 
things.''? Or are these just thrown into the hopper and, then, 
kind of catch as catch can, they work on these; they don't work 
on those?
    I am trying to just kind of wrap my mind around the day-by-
day, year-by-year interaction between your Agency and those 
folks that are supposed to implement it, to make sure high-
priority things are done and, you know, squeaky wheel, that you 
are kind of jabbing at them, ``Why didn't you get this done?'', 
and so forth. Could you maybe just help us all a little better 
understand how that all works, the interaction?
    Mr. Gomez. Sure. So, first of all, I just want to say that 
we take recommendations to EPA very seriously. And so, what we 
do is we have a process in place where we're actively following 
recommendations that we've made in the last 4 years.
    What can happen to some of the older recommendations is, if 
we learn from the Agency that either they're not going to 
implement it or that we make an assessment that things have 
changed or it's no longer a priority, we'll go ahead and close 
it. It's not implemented.
    Now there are recommendations, though, that are old, older 
than 4 years, that we're still keeping track of because we have 
an indication that EPA is still working and we hope that they 
actually do take action. We can go back at anytime and open up 
any old recommendation that was not implemented if we think 
it's important or if others have brought it to our attention.
    Our recommendations and the status of the recommendations 
are public. So, you can go to any of our reports. You can click 
on the recommendation status. You can see what the rec was and 
what the status was.
    So, we do have this separate letter that we mentioned 
earlier, which is a priority rec letter that our Comptroller 
General sends to all of the Cabinet agencies and other offices 
calling attention to recommendations that we see as a high 
priority.
    And for EPA, we've identified those recommendations that 
deal with the high-risk area of managing toxic chemicals and, 
then, some of the recommendations that deal with water 
infrastructure and also pollution of our waters.
    So, that letter can also change year to year if we go 
through the history and identify other recs that we think are 
important. So, we do that process as well.
    Now I also mentioned that we work with EPA sort of on an 
ongoing basis as we are doing audits, but, formally, we go to 
them twice a year with a long list of all our recommendations 
to say, ``Here they are; they're still open. Let us know what's 
happening. Let us know which we can close.'' So, we do that 
twice a year formally, but we're in contact with them 
throughout the year.
    Mr. Collins. That is really helpful because I think 
sometimes we may not understand how that all works and think 
you just throw it in and go on about your business. And I think 
it is actually reassuring to me, certainly for one, that you 
have got it sounds like pretty good interaction. Would you say 
that?
    Mr. Gomez. Yes. Yes.
    Mr. Collins. That you are making them aware; they are 
listening. It is back and forth?
    Mr. Gomez. Right. I mean, there are some recommendations 
where the agency will disagree with us. And so, we may be at a 
point where they disagree. We disagree. We still think it's a 
good recommendation. And so, there's some like that, and those 
might be closed as not implemented.
    But EPA has taken our recommendations seriously and they 
want to close them out. They want to do what we're saying. It's 
just in some cases some of our recommendations might take a 
little longer to do. For example, if we're recommending that an 
IT system, for example, be revised or a new IT system be put in 
place, that may take a while longer than if we just recommend 
that the Agency use existing web tools, for example, to provide 
better information to the public. We don't see that as taking a 
long time or it shouldn't take a long time.
    Mr. Collins. Well, I appreciate that overview. That was 
very helpful for me.
    And, Mr. Chairman, I yield back the balance of my time.
    Mr. Murphy. I now recognize Ms. Clarke for 5 minutes.
    Ms. Clarke. I thank you, Mr. Chairman, and I thank our 
ranking member, Ms. Castor, and I thank our witnesses for 
joining us today.
    Like Mr. Pallone, my district in New York sustained very 
substantial damage as a result of Superstorm Sandy. So, I am 
very sensitive to the conditions on the ground in Houston as 
well as concerned about the rest of hurricane season, quite 
frankly. And so, standing up a robust operation with the EPA I 
know is critical at this time.
    There have been a number of reports about unfolding 
environmental concerns stemming from Harvey right now. And so, 
Mr. Larsen, I recognize that your role at EPA may not directly 
involve you in emergency response efforts. However, to the 
extent that you are able, could you please inform us of the 
EPA's role in responding to unfolding environmental threats?
    Mr. Larsen. Sure. As Mr. Gomez alluded to earlier, I think 
the primary set of responsibilities that EPA has here stem from 
the National Response Framework, which came after some of the 
earlier natural disasters. And that means that EPA has 
responsibility as a support agency for certain functions, and 
it's got a primary responsibility for certain functions. And 
the areas where we would expect to see EPA involved are 
assessing and addressing fuel shortages, monitoring public 
water systems, securing Superfund sites, and assessing 
conditions at major industrial facilities.
    Ms. Clarke. Very well. And, Mr. Gomez, how will GAO 
evaluate the EPA's efforts to respond to the environmental 
threats posed by hurricane season, Hurricane Harvey being the 
most recent example?
    Mr. Gomez. So, GAO in the past, you know, we looked at the 
Katrina recovery efforts. So, that was something that we did. 
We're happy to assist Congress in any reviews or oversight that 
you would like us to do as a result of Hurricane Harvey.
    Ms. Clarke. Mr. Larsen, addressing the numerous cleanup 
issues related to Harvey's flooding will likely be very costly 
to both local and the Federal Government. What roles do you 
envision your office will be playing to ensure that Federal 
money the EPA uses to contract for Harvey cleanup will be 
safeguarded from fraud and abuse?
    Mr. Larsen. Yes. Thank you.
    We're going to do two things. One is EPA OIG specific work. 
The other thing I wanted to mention is that the organization of 
IGs across the Federal Government, the CIGIE, has learned from 
the past and in the past had a Disaster Assistance Working 
Group which is basically the IGs from the various agencies that 
are going to have to play a role here. And so, EPA will be 
participating in that effort, this Agency-wide IG or 
Government-wide OIG effort to make sure that everybody's doing 
what they need to do and not duplicating each other.
    For ourselves, we'll probably, as you allude to, be looking 
at contracting issues, whether there was fraud involved. That 
could take the form of audits or investigations, as we 
distinguished earlier. That is, was there criminal activity 
going on or was there sloppy practice with regard to 
contracting? So, those are the areas that we would see fairly 
early on getting involved in.
    Ms. Clarke. Very well.
    And, Mr. Gomez, given that post-Harvey cleanup will be 
lengthy and costly, and I am assuming if we are hit with Irma 
and any other hurricanes coming down the pike, what areas do 
you anticipate your GAO team will be interested in examining?
    Mr. Gomez. Well, again, you know, we're here to assist 
Congress. So, whatever Congress asks us to do, as we've seen 
from at least what's becoming clear in Texas with the Superfund 
sites and all the water infrastructure systems that are down, 
that maybe those are areas where potentially we could look at. 
But, again, we can have discussions with anyone in Congress 
who's interested in having GAO look at the response efforts.
    Ms. Clarke. Very well. I cannot emphasize enough that we 
need to address any environmental threats posed to the 
residents of the Harvey-affected region and perhaps even 
Florida coming down the pike. My thoughts are with the people 
of Houston, the responders assisting on the scene, and let's be 
sure to get these folks what they need to help them get back on 
their feet.
    With that, Mr. Chairman, I yield back.
    Mr. Murphy. The gentlelady yields back, and I now recognize 
the gentleman from Pennsylvania, Mr. Costello, for 5 minutes.
    Mr. Costello. Thank you, Mr. Chairman.
    Thank you for your testimony here today.
    Mr. Gomez, I would like to start with you. Your written 
testimony mentions that in 2015 the EPA awarded approximately 
$3.9 billion, or nearly half of its budget, in grants to State 
and local governments for important projects such as repairing 
aging water infrastructure, preventing pollution, improving air 
quality, and cleaning up hazardous waste sites. However, GAO 
found weaknesses in EPA's ability to manage these grants 
efficiently and effectively.
    My question is, would you please elaborate on the 
weaknesses GAO identified in EPA's grant management procedures? 
Second, how have these grant management inefficiencies and 
weaknesses impacted grant recipients? I think that is a very 
important question. And then, finally, have these 
inefficiencies contributed to the wasting of grant money or 
made it more difficult for recipients to use grant funding for 
its intended purposes?
    Mr. Gomez. Sure. Thank you for those questions.
    So, we have done a body of work on grants management. And 
that particular report, well, we looked at also, we are looking 
to see for recipients, for example, where they were doing 
duplicative reporting. So, currently, under the grants 
management at EPA, recipients, grant recipients, have to 
provide performance reports and, then, they also have to 
provide more information and data when EPA asks for it.
    So, we identified a number of places where there was 
duplicative reporting by the recipients. And so, we've 
recommended that EPA identify all of those places and try to do 
away with the duplication, so that recipients aren't having to 
spend additional time and resources in doing the reporting. So, 
that's one area where we called attention to it.
    And really for EPA also to streamline, and EPA does have a 
streamline initiative in place in its grants management. But we 
were calling attention to those places where they can do away 
with duplication, so that the recipients can carry on with the 
grants and not have to do a lot of reporting.
    Mr. Costello. Mr. Larsen, the OIG made similar findings 
with respect to areas for improvement in EPA's management of 
grants. Do you have anything to add to the line of questioning 
that I have posed to Mr. Gomez relative to the management of 
grants?
    Mr. Larsen. I wish I did. As Representative Clarke noted, 
I'm an expert in some areas, not so much in others.
    Mr. Costello. I often say that myself.
    Mr. Larsen. But what I would be happy to do is organize and 
get back to you and your staff with the primary findings that 
we've had in those areas.
    Mr. Costello. Thank you. I will yield back the balance of 
my time.
    Mr. Murphy. The gentleman yields back.
    I now recognize Dr. Ruiz of California for 5 minutes.
    Mr. Ruiz. Thank you, Mr. Chairman.
    Thank you to our witnesses for taking the time in joining 
us this morning.
    We have heard about the EPA's role in the emergency 
response programs for natural disasters like Hurricane Harvey 
and your coordinating efforts with FEMA, State, local. I am 
interested in your efforts to coordinate with tribes. And what 
have you done to reach out and engage tribes with your efforts 
in Hurricane Harvey?
    Mr. Larsen. So far, we've not reached out to anybody. As I 
said, at this point we don't want to wander onto the 
battlefield while the battle is underway.
    The CIGIE--that is the IG community-wide effort that I 
alluded to earlier--is, among other things, going to coordinate 
among the various IGs and also with the Tribes and the States.
    Mr. Ruiz. Well, I think that is important to take back to 
this group not to neglect the sovereignty of Tribes and the 
role that Tribes have in order to maintain their environment 
during natural disasters as well. And so, reaching out to them 
and coordinating. Some Tribes actually have equipment and the 
technology that can help the disaster response, like we have 
seen in my district with the Agua Caliente Band of Cahuilla 
Indians utilizing helicopters and other surveillance technology 
in coordination with the fire departments to put out some 
wildfires. So, I would highly recommend that you take it back 
and you start coordinating, also, with Tribes as a sovereign 
nation and a governmental entity themselves. They can be very, 
very helpful for the region.
    Given the OIG's review of the EPA's response to 
environmental threats, what are some of the lessons learned 
that we might see for future storm threats in an area where the 
IG might consider additional audit work?
    Mr. Larsen. Sure. We've, unfortunately, had Katrina. We've 
had Superstorm Sandy. We've learned from both. Among the things 
that we learned were that the coordination between EPA and the 
Corps of Engineers wasn't necessarily what it could have been 
or should have been. Coordination with State and local 
officials probably could have been done better.
    We've addressed those to the Agency. Presumably, this time 
around you'll see better coordination. Most likely, we'll be 
coming in and seeing whether, in fact, that occurred.
    Mr. Ruiz. Are you, then, prepared to assess that?
    Mr. Larsen. Yes.
    Mr. Ruiz. And the difference on whether or not those 
recommendations were followed?
    Mr. Larsen. I can't commit that we're going to; I expect 
that we will. To Mr. Pallone's question earlier, we're 
resources-constrained, but that would be a high priority for 
us.
    Mr. Ruiz. So, if you were to pick--and this is a question 
for both of you--if you were to pick a No. 1 barrier for you to 
do your jobs, is EPA involved either in coordination or 
protecting Superfund sites or protecting water infrastructure, 
et cetera, so that they're not contaminated, what would that 
barrier be? If you were to pick the biggest barrier, what would 
it be, Mr. Larsen?
    Mr. Larsen. I'm sorry, I don't mean to sound dense, but are 
you talking about EPA's response or the OIG's evaluation of the 
EPA's response?
    Mr. Ruiz. Well, the EPA's response.
     Mr. Larsen. OK.
    Mr. Ruiz. You evaluate the EPA. So, what would you say 
would be the EPA's barrier in doing its job in these----
    Mr. Larsen. Boy, you're putting me in the position of 
speaking for them, but I would think it's the resources, people 
and money.
    Mr. Ruiz. People and money.
    Mr. Gomez?
    Mr. Gomez. So, I would say, in the areas that we're seeing 
unfolding, right, which is in water infrastructure and in the 
Superfund sites, at least in Texas, that are flooded, it is 
making sure that they have enough people there on the ground to 
respond to those two immediate areas where potentially there 
are risks involved. So, I would say that that would be, if that 
is a barrier, that they should have enough folks there to 
address it right now.
    Mr. Ruiz. And so, what can Congress do to address that 
barrier? Mr. Larsen?
    Mr. Larsen. Well, in my view, you've already got the 
substantive requirements in place. You've got the Clean Air 
Act. You've got the Clean Water Act. And it's up to EPA to 
execute on that. They need the people, and they need the policy 
determination to carry forward.
    Mr. Gomez. I think it's what you're doing now. It's the 
oversight, right, of looking to see how that's being done, and 
even after the fact, how was it done and could something be 
done better.
    Mr. Ruiz. So, the oversight is the diagnostic workup, 
right? And you're telling us that the diagnosis is lack of 
funding, lack of people. So, the treatment is the next step. 
So, you can't just diagnose a problem and walk away. You have 
to act on it and give the treatment to the patient. And so, the 
treatment is the funding and policies that will help bring more 
people onsite to manage the situation, not only in the short, 
acute disaster, but in the long-term public health 
recuperation.
    I have disaster training in my background. I did a 
fellowship at Harvard in the humanitarian disaster response. 
So, that is where I am speaking from.
    Thank you very much. I yield back.
    Mr. Murphy. Thank you, and I recognize Ms. Brooks for 5 
minutes.
    Ms. Brooks. Thank you, Mr. Chairman.
    And I want to thank our panelists for being here today and 
for your work to improve the EPA.
    We have been very focused on the people, and agencies 
aren't just agencies; they are people. And as my colleagues 
have noted, it is about the people. But I am concerned that 
this Agency for a long period of time has not accepted your 
recommendations when it comes to people and when it comes to 
their workforce.
    In 2010, GAO issued a report recommending the EPA establish 
mechanisms to evaluate workforce planning, which are people, 
placement of people, but the recommendation is currently closed 
and unimplemented.
    So, Mr. Gomez, why was this recommendation closed before 
EPA was able to implement it, if you know?
    Mr. Gomez. So, again, we track recommendations for 4 years. 
And if we have an indication that the Agency is not going to do 
it, we close it as not implemented. Obviously, we've done some 
recent work that's focused on grants management, but also 
looking at workforce issues, in particular, which is a large 
part of EPA.
    So, EPA has told us that, currently, they are giving 
workforce planning a priority. So, we are going to look to see 
how much of a priority that is and, in fact, what they're going 
to do.
    You know, we've been talking about that it's basically 
about data. They don't have good workforce data. They don't 
have good information on the types of work that each of their 
staff is doing across offices and across regions. So, if you 
don't have that data, then you, again, don't ensure that you 
have the right people in the right places with the right skill 
sets to accomplish the mission that's needed.
    Ms. Brooks. Those are the management challenges that you 
are dealing with them and have dealt with them for years. It 
sounds like this is not new. Is that correct?
    Mr. Gomez. That is correct.
    Ms. Brooks. And do you have any sense what percentage of 
EPA's funding goes to private sector contract work versus the 
public sector work?
    Mr. Gomez. So, in our 2010 report we did look at 
contractors, and at the time there were 6,000 contractors at 
EPA. And so, I'm not sure exactly what that translates to in 
terms of budget, but I think it's a considerable chunk of their 
budget.
    And so, what we also found in that report was that 
contractors were not part of EPA's planning, either, were not 
incorporated. And we learned from EPA recently that they're 
still not incorporated in their planning, and we think that 
that should be something that they should do.
    Ms. Brooks. When they employ 6,000 contractors, they're not 
taken into consideration in their strategic plans?
    Mr. Gomez. Correct.
    Ms. Brooks. And have they agreed recently to take all of 
those thousands of contractors into account in their plans?
    Mr. Gomez. So far, what we've learned is that they haven't 
done it yet. So, I'm not sure if they're agreeing or 
disagreeing. The explanation they gave us was that OMB didn't 
require them in their planning to include contractors. And so, 
that's why they didn't do it.
    Ms. Brooks. Is it fair to say--and I am going to ask you, 
Mr. Larsen--relative to I have also been very concerned about 
information security issues. And for the IG, that is what you 
focus on as well. And there are a number of contractors, as I 
understand, and if some bad actors were wrong, you know, 
wrongdoers want to wreak a bit of havoc in systems, they could 
certainly do it through information technology. Can you talk 
with us about the lack of understanding at EPA relative to 
sensitive data, the access to sensitive data, and what you have 
found about the information, or lack of information, about the 
knowledge of EPA and the access to sensitive data?
    Mr. Larsen. Sure. I think what we talk about is risk as 
opposed to actual problems that have manifested. That is, we 
have not investigated an insider threat where an individual 
breached his obligations and created a vulnerability.
    What we're talking about is, if we don't address the 
vulnerabilities, then the potential is out there. So, that's 
what we've been looking at, and we find that the Agency doesn't 
know how serious a problem that is and they haven't taken the 
steps to mitigate the potential risks that we've identified.
    Ms. Brooks. And that was just in your July of 2017 report 
that the Agency just issued?
    Mr. Larsen. That's correct.
    Ms. Brooks. OK. Thank you. I yield back.
    Mr. Murphy. The gentlelady yields back.
    I recognize Mr. Tonko for 5 minutes.
    Mr. Tonko. Thank you, Mr. Chair.
    First, I want to express my deepest condolences to our 
fellow Americans who are suffering from the devastation of 
Hurricane Harvey. Everyone has witnessed this day-by-day 
reporting with just deep concern and sadness for the folks who 
are enduring.
    EPA has, therefore, an important role to play in disaster 
response and recovery, ensuring the environmental monitoring 
and remediation needed to protect public health. And these 
storms, these natural disasters don't know for Republican or 
Democrat. So, it ought to be a universally agreed-to approach 
that we take here in Washington.
    But that can only be done if EPA has the resources and 
personnel to do so. This weekend the EPA released statements 
highlighting just some of the work they will need to do in the 
days, weeks, and months ahead. That includes assessing 13 
existing Superfund sites that were flooded and could be 
damaged, addressing the many drinking and wastewater systems 
that remain shut down or damaged or are dealing with health 
advisories, assisting with testing for private wells, and 
supporting local first responders with monitoring and cleanup 
following chemical fires at the Arkema facility in Crosby, 
Texas.
    The need for a strong, robust EPA is outstandingly clear, 
and massive budget and workforce cuts, and proposals to weaken 
understaffed or even eliminate regional offices are not the 
answer. Beyond that, I have to believe it is tremendously 
demoralizing to the professional staff of the Agency, many of 
whom offer their lifetime career to the Agency and to the 
betterment of Americans across the country.
    So, I want to thank you, Mr. Gomez and Mr. Larsen, for 
being here this morning. The recommendations proposed by GAO 
and the IG's office can continue to make EPA a more efficient 
and successful Agency.
    Sadly, this administration, the Trump administration, is 
aggressively working to dismantle the EPA through regulatory 
rollbacks, extreme budget cuts, and staff eliminations, and 
ongoing assault on science. These are foolish cuts, proven to 
be very foolish when we see disasters displayed right before 
our very eyes.
    Mr. Gomez, GAO released a report on EPA, Interior, and 
Forest Service workforce planning in March of 2010 which 
concluded that the agencies' efforts have, I quote, 
``particularly fallen short in aligning the Agency's workforce 
plans with their strategic plans.'' The report concludes that 
agencies are at risk of not having the appropriately skilled 
workforce they need to effectively achieve their missions.
    So, are you generally familiar with that report of 2010?
    Mr. Gomez. Yes.
    Mr. Tonko. Mr. Gomez, did EPA take action to address that?
    Mr. Gomez. They have not yet.
    Mr. Tonko. What about further actions? Will they be doing 
anything that you know of in respect to workforce planning to 
correct the numbers that they require?
    Mr. Gomez. No. That's still an outstanding recommendation, 
again, to properly align its workforce plan with its strategic 
plan and its budget.
    Mr. Tonko. And the Trump administration proposed cutting 
funding to the Agency by nearly $2.6 billion--that's about a 
31-percent reduction--and proposed reducing the workforce by 
some 3800 employees. Nearly 50 programs to protect our air and 
water, address climate change, and strengthen chemical safety 
were highlighted for elimination. Just unbelievable cuts. This 
included the Chemical Safety Board, the independent Federal 
Agency tasked with investigating chemical accidents such as the 
recent fires at the Arkema chemical plant in Crosby, Texas.
    Mr. Gomez, in your testimony today you note that the March 
2010 report found that, I quote, ``The ability of Federal 
agencies to achieve their mission and carry out their 
responsibilities depends in large part on whether they can 
sustain a workforce that possesses the necessary education, 
knowledge, skills, and other competencies.'' Is that correct?
    Mr. Gomez. Yes, that's correct.
    Mr. Tonko. Well, I thank you, Mr. Chair.
    We should all be concerned about how extreme the budget 
cuts proposed are and that the staffing reductions proposed 
would undermine EPA's ability to accomplish its mission, 
especially in the face of disasters. These are troubling cuts 
and proven day by day now with these disasters to be the most 
foolish approach to an Agency that was envisioned by President 
Nixon to address safe water that we drink, clean air that we 
breathe, and all the environmental benefits that should be 
associated with our rights as Americans to enjoy that 
environment as fully as possible.
    So, I do appreciate the work you are doing to draw the 
attention of the American public to these cuts and to the 
essential elements that these agencies require in order to 
respond fully and effectively to their mission.
    And with that, I yield back.
    Mr. Murphy. The gentleman yields back.
    And seeing we have no more Members here, we will conclude 
this hearing.
    I would like to thank all the witnesses and Members who 
have participated in today's hearing.
    I realize a lot of this was along the lines of what else 
are we going to be doing. We felt that very important to get it 
on the record for EPA to hear. We expect them to take care of 
these issues, to fill those positions that are needed, to take 
some accounting of what is going on, because we will be asking 
more questions about what has happened in terms of preparedness 
and response here. None of us want to see any loss of life or 
property caused by some problems with an Agency fulfilling 
their duties as you have outlined them for us.
    So, we thank you for your observations and your comments 
today.
    I remind Members they have 10 business days to submit 
questions for the record. I ask that the witnesses all agree to 
respond promptly to the questions.
    With that, this committee is adjourned.
    [Whereupon, at 11:46 a.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
